WAIVER

Supreme Court, U.S.
FILED

Supreme Court of the United States

OFFICE OF THE CLERK

No. 20-1450
Michael C. Murphy

MAY 0 5 2021

v. Melissa Ann Blalock, as Executrix of the
Estate of Gloria Kay Murphy-Wallace
(Respondent)

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is
requested by the Court.
Please checletliapPrOiCifate bdki
ancfiling this w`aiVdi'oxi behalf of all respondents.
0

I only represent some respondents. I am filing this waiver on behalf of the following
respondent(s):

;

i •

:• T

Please cheek the appropriate box:i.
-,
, •
•
0 I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions:
File a signed Waiver in the Supreme:Court Electronic Filing System. The system will
prompt you to enter your appearance first.)
er"--lam not presently a member of the Bar of this Court. Should a response be requested, the
response will be filed by a Bar me ber. (Filing Instr tions: Mail the original signed form
to: Supreme C urt, Attn: Clerk's ffice, 1 First St et, NE, Washington, D.C. 20543).
eSignature
Ou
Date:
(Type or print) Name

bawl

kea

0 Ms.
Firm

Low) 0

AddressS17g'

je51---

City & State
Phone

4-2

V% l (1

i 4.6e-

RECEIVED
s ie
Mrs.

MAY 1 4 2021

Miss

OFFICE OF THE CLERK

((e (3

SUPREME COURT, U.S.

s•• • v

4-0-cAn e—Tre IA r cse

5-6 7 r 11-61

1

@

Zip

"-} 7 Cri`71

k lifts( ei

co-vvi

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PROSE. PLEASEINDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY OF THIS
FORM. NO ADDITIONAL CERTIFICATE OF SERVICE OR COVER LETTER IS REQUIRED.
cc:

Supreme Court of the United States

Michael C. Murphy
(Petitioner)
v.

No. 20-1450

Melissa Ann Blalock, as Executrix of the Estate of Gloria Kay Murphy-Wallace
(Respondent)

To

Ke114Y

Counsel for Respondent:

NOTICE IS HEREBY GIVEN pursuant to Rule 12.3 that a petition for a writ of
certiorari in the above-entitled case was filed in the Supreme Court of the United States
on April 13, 2021, and placed on the docket April 16, 2021. Pursuant to Rule 15.3, the
due date for a brief in opposition is Monday, May 17, 2021. If the due date is a Saturday,
Sunday, or federal legal holiday, the brief is due on the next day that is not a Saturday,
Sunday or federal legal holiday.
Beginning November 13, 2017, parties represented by counsel must submit filings
through the Supreme Court's electronic filing system. Paper remains the official form of
filing, and electronic filing is in addition to the existing paper submission requirement.
Attorneys must register for the system in advance, and the registration process may take
several days. Further information about the system can be found at
https://www.supremecourt.gov/filingandrules/electronicfiling.aspx.

Unless the Solicitor General of the United States represents the respondent, a
waiver form is enclosed and should be sent to the Clerk only in the event you do not
intend to file a response to the petition.
Only counsel of record will receive notification of the Court's action in this case.
Counsel of record must be a member of the Bar of this Court.

Mr. Michael C. Murphy
PO Box 1365
Morristown, TN 37816
423-581-1022

NOTE: This notice is for notification purposes only, and neither the original nor a copy should be filed in the
Supreme Court.

